No. ______
In the

Supreme Court of the United States
__________________
LAVERN BEHM,
Petitioner,
v.
MONTANA-DAKOTA UTILITIES CO.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of North Dakota

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

ROBERT HALE
1919 2nd Street SE
Minot, ND 58701
(701) 858-0800
couple48@hotmail.com

LYNN M. BOUGHEY
Counsel of Record
BOUGHEY LAW FIRM
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com

Counsel for Petitioner

April 16, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
Montana Dakota Utility (hereinafter MDU), a
private corporation, employed the power of eminent
domain to procure an easement on Vern Behm’s
farmland immediately along a pre-existing county road
but outside the right-of-way. This taking by a private
entity was for the purpose of extending an
underground natural gas pipeline for the sole use of
another private company, Burlington Northern Santa
Fe. The district court dismissed the action, finding that
the purpose of the pipeline (heating a switch during the
winter months) was already being met by the use of
propane tanks and that MDU’s refusal to use the
township thirty-three foot easement that follows and
parallels the existing county road demonstrated that
the subject easement was not necessary and was
indeed a mere convenience to the railroad.
On appeal the North Dakota Supreme Court
reversed the district court, ignoring the lower court’s
findings relating to necessity and mere convenience to
a private company, holding that the only requirement
for the taking is a determination by the private
company that its taking was for a public use. MontanaDakota Utilities Co. v. Behm, 2019 ND 139, 927 N.W.2d
865.
Lavern Behm asserts that this taking is
unwarranted and a violation of due process and the
taking clause.
The petitioner presents the following questions:
1. Is it a violation of due process and the taking clause
for the state – as a matter of law – to allow a private
corporation to take private property through eminent

ii
domain based solely on the private corporation’s own
determination that the taking is for a public use?
2. In an eminent domain case where the trier of fact
has found that the taking is not a public use, is not
necessary, and is merely for the convenience of one
private entity for the benefit of another private entity,
is it a violation of the federal due process and the
federal taking clause for an appellate court to disregard
these evidentiary findings and allow the taking to occur
based solely on the private company’s own
determination that there is a public use?
3. Should the case of Kelo v. New London, 545 U.S. 469
(2005), be overruled and the analysis presented by
Justice Thomas in his dissent be adopted by this
Court?
4. Where the state legislature provides for attorney fees
in all eminent domain actions relating to “all
proceedings” and where attorney fees are allowed at
the District Court [and appellate court] level, must
such award of attorneys fees also include the fees and
costs relating to a petition for certiorari before the
United States Supreme Court?

iii
PARTIES TO THE PROCEEDING
Petitioner Lavern (“Vern”) Behm is a North Dakota
farmer and landowner. He was defendant in the state
district court and appellee and cross-appellant before
the North Dakota Supreme Court.
Respondent is Montana-Dakota Utilities Co.
(“MDU”), a private corporation. MDU was plaintiff in
the district court and appellant and cross-appellee
before the North Dakota Supreme Court.
PROCEEDING BELOW
The petition relates to the decision of the North
Dakota Supreme Court, Montana-Dakota Utilities Co.
v. Behm, 2020 ND 234, 951 N.W.2d 208. The opinion
was issued on November 19, 2020; the Supreme Court
issued its mandate on November 23, 2020. The North
Dakota Supreme Court docket number is 20200122.
This matter was previously presented to this Court
by a petition for certiorari in which this Court
requested MDU file a responsive brief, and
subsequently denied the petition,1 perhaps because
1 The first petition for certiorari was presented on August 12,
2019, No. 19-197, and this Court on September 19, 2019, requested
a responsive brief from MDU. MDU filed its brief in opposition on
October 15, 2019. Behm filed a reply brief on October 24, 2019.
Certiorari was denied on November 18, 2019. The case then
reverted back to the District Court for trial on the merits.
The previous petition related to the decision of the North
Dakota Supreme Court, Montana-Dakota Utilities Co. v. Behm,
2019 ND 139, 927 N.W.2d 865. The opinion was issued on May 16,
2019; the North Dakota Supreme Court issued its mandate on
June 7, 2019. The North Dakota Supreme Court docket number is

iv
MDU argued that the federal issue was not raised
below. The case then reverted back to the District
Court on the North Dakota Supreme Court remand.
On remand, Vern Behm presented both federal and
state constitutional issues to the district court through
his pretrial brief and requested jury instructions. Thus,
Vern Behm asserted below the following:
1. That no taking could occur without the jury
specifically finding that the taking is for a public
use.
2. That no taking could occur without the jury is
this specifically finding that the taking is necessary.
3. That the burden of proving that the taking
constitutes a public use and is necessary is on
MDU, the entity proposing the taking.
On January 3, 2020, the district court declined Vern
Behm’s request to present these questions to the jury
as part of the jury’s deliberations or to employ the jury
in an advisory capacity as to these issues; instead, the
district court ruled that “[t]he only matter left for
determination in this trial is the issue of eminent
domain damages to be awarded.”
The parties thereupon resolved the valuation
relating to the taking while retaining Vern Behm’s
20180321.The district court issued its decision dismissing MDU’s
action on December 14, 2017 and its decision awarding attorney
fees on May 29, 2018. The district court docket number is Ward Co.
No. 51-2016-CV-01678. Neither decision issued by the district
court is reported. Judgment by the district court was entered on
July 20, 2018.

v
right to appeal all of the issues raised before the
district court, including any issue relating to attorney
fees.
In regards to attorney fees, the district court on
February 7, 2020, followed the statutory requirement
to award attorney fees in an eminent domain action
before the district court and the North Dakota
Supreme Court, but refused to award fees and costs
relating to the petition to this Court – even though the
statute requires an award of fees “to “all proceedings.”
On November 19, 2020, the North Dakota Supreme
Court affirmed all the rulings of the district court,
including the denial of attorney fees for proceeding in
this action to the United States Supreme Court.
Montana-Dakota Utilities Co. v. Behm, 2020 ND 234,
951 N.W.2d 208. The North Dakota Supreme Court
issued its mandate on November 23, 2020. None of the
decisions issued by the district court is reported.

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
PROCEEDING BELOW . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . x
PETITION FOR CERTIORARI. . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED. . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE PETITION . . . . 9
A. An Analysis of the Decision Below . . . . . . . . 10
B. The Origins and Constitutional Importance
of Property Rights . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
APPENDIX
Appendix A Opinion in the Supreme Court State of
North Dakota
(November 19, 2020) . . . . . . . . . . . App. 1
Appendix B Judgment in the Supreme Court State
of North Dakota
(November 23, 2020) . . . . . . . . . . App. 12

vii
Appendix C Opinion in the Supreme Court State of
North Dakota
(May 16, 2019) . . . . . . . . . . . . . . App. 14
Appendix D Judgment in the Supreme Court State
of North Dakota
(June 7, 2019) . . . . . . . . . . . . . . . App. 29
Appendix E Judgment in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(July 20, 2018) . . . . . . . . . . . . . . App. 31
Appendix F Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(May 29, 2018) . . . . . . . . . . . . . . App. 52
Appendix G Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(December 14, 2017) . . . . . . . . . . App. 62
Appendix H Notice of Trial in the District Court
North Central Judicial District, State
of North Dakota, County of Ward
(January 12, 2018) . . . . . . . . . . . App. 69
Appendix I Complaint in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(September 7, 2016) . . . . . . . . . . App. 71

viii
Appendix J Answer and Counterclaim in the
District Court North Central Judicial
District, State of North Dakota,
County of Ward
(October 25, 2016) . . . . . . . . . . . . App. 77
Appendix K Reply to Counterclaim in the District
Court North Central Judicial District,
State of North Dakota, County of
Ward
(November 9, 2016). . . . . . . . . . . App. 85
Appendix L Plaintiff’s Pretrial Statement, Witness
List, Exhibit List and Request for Jury
Instructions in the State of North
Dakota County of Ward
(December 18, 2019) . . . . . . . . . . App. 87
Appendix M Letter to the Honorable Gary H. Lee
(December 12, 2019) . . . . . . . . . . App. 91
Appendix N Proposed Jury Instructions . . . . App. 93
Appendix O Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(January 3, 2020) . . . . . . . . . . . App. 123
Appendix P Stipulation Regarding Valuation,
Attorney’s Feeds and Entry of a Final
Order of Condemnation in the State of
North Dakota County of Ward in
District Court North Central Judicial
District
(January 7, 2020) . . . . . . . . . . . App. 126

ix
Appendix Q Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(January 7, 2020) . . . . . . . . . . . App. 132
Appendix R Order in the State of North Dakota
County of Ward in District Court
North Central Judicial District
(February 7, 2020) . . . . . . . . . . App. 134

x
TABLE OF AUTHORITIES
CASES
Kelo v. New London,
545 U.S. 469 (2005). . . . . . . . . . . . . . . . . . . passim
Lynch v. Household Finance Corp.,
405 U.S. 538 (1972). . . . . . . . . . . . . . . . . . . . . . . 22
Montana-Dakota Utilities Co. v. Behm,
2019 ND 139, 927 N.W.2d 865 (2019) . . . . passim
Montana-Dakota Utilities Co. v. Behm,
2020 ND 234, 951 N.W.2d 208 (2020) . . iii, v, 1, 16
National Railroad Passenger Corporation v.
Boston & Maine Corp., 503 U.S. 407 (1992) . . . 16
United States v. Carmack,
329 U.S. 230 (1946). . . . . . . . . . . . . . . . . 16, 17, 28
United States v. Carolene Products Co.,
304 U.S. 144 (1938). . . . . . . . . . . . . . . . . . . . . . . 22
CONSTITUTION AND STATUTES
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . passim
28 U.S.C. §1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
James W Ely, Jr., THE GUARDIAN OF EVERY OTHER
RIGHT: A CONSTITUTIONAL HISTORY OF PROPERTY
RIGHTS (3rd ed. 2008) . . . . . . . . . . . . . . . . . passim
FEDERALIST No. 54 (Feb. 12, 1788) . . . . . . . . . . . . . 20

xi
L. Hand, THE BILL OF RIGHTS (1958). . . . . . . . . . . . 21
John Locke, AN ESSAY ON CIVIL GOVERNMENT . . . . . 19
John Locke, CONCERNING CIVIL GOVERNMENT . . . . . 19
John Locke, ESSAY CONCERNING HUMAN
UNDERSTANDING . . . . . . . . . . . . . . . . . . . . . . . . . 20
David C. Thompson and Melanie F. Wachtell, An
Empirical Analysis of Supreme Court Certiorari
Petition Procedures: The Call for Response and
the Call for The Views of The Solicitor General,
16:2 GEO.MASON L. REV. 237 (2009) . . . . 14, 15

1
PETITION FOR CERTIORARI
Vern Behm hereby petitions this Court to issue a
writ of certiorari directed to the North Dakota Supreme
Court.
OPINIONS BELOW
Montana-Dakota Utilities Co. v. Behm, 2019 ND
139, 927 N.W.2d 865, and Montana-Dakota Utilities
Co. v. Behm, 2020 ND 234, 951 N.W.2d 208. The
district court two orders are not published.
JURISDICTION
The opinion was issued on November 19, 2020; the
North Dakota Supreme Court issued its mandate on
November 23, 2020. This Court has jurisdiction under
28 U.S.C. §1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Due Process Clause, the Takings Clause, the
Public Use Clause, all of the Fifth Amendment of the
U.S. Constitution, and the Fourteenth Amendment as
applying these constitutional rights to the States.
STATEMENT OF THE CASE
The Court, the Hon. Gary H. Lee presiding, ruled in
favor of the defendant Lavern Behm and granted his
motion to dismiss this eminent domain action brought
by MDU because the taking was not “necessary.” The
petitioner sought to raise in his brief before the North
Dakota Supreme Court the proper interpretation of the
Due Process Clause, the Taking Clause, and Public Use
Clause of the Fifth Amendment, and the Right to a

2
Jury under the Seventh Amendment. The federal
questions were timely and properly raised. The North
Dakota Supreme Court refused to address the federal
questions and reversed and remanded the case for trial
on eminent domain damages to be awarded to Behm.
Montana-Dakota Utilities Co. v. Behm, 2019 ND 139,
927 N.W.2d 865. On remand Vern Behm presented
both federal and state constitutional rights to the
district court through his pretrial brief and requested
jury instructions. The district court declined to present
the factual issues to the jury that relate to the
constitutional issues raised. The parties thereupon
resolved the only issue remaining, that of the value of
the taking, with Behm reserving the right to appeal the
constitutional issues and any adverse decision relating
to attorney fees. The district court awarded attorney
fees for the state district and state appellate time, but
denied fees and costs relating to his appeal of the same
matter to the United States Supreme Court. Behm
appealed all issues to the North Dakota Supreme
Court, which affirmed everything that had occurred
below, including the denied attorney fees and cost
before the United States Supreme Court in the same
proceeding.
The district court below in the initial case properly
analyzed this case and made the following findings:
¶5 Lavern Behm owns agricultural land in Ward
County, Section 16, 155 N., 84 W. The land is
bounded on the west side by a gravel township
road, commonly referred to as 128th Street
Northwest. The land is cut, generally east to
west, by a Burlington Northern Santa Fe

3
railroad right-of-way. Along the southern edge of
the property MDU maintains a pipeline running
generally east to west.
¶6 Burlington Northern Santa Fe maintains and
operates a switch on its right-of-way. In order to
keep the switch operating in the winter months,
Burlington Northern Santa Fe must keep the
switch heated so that it is free of ice and snow.
Presently, this is done by a propane heater.
Propane tanks are located near the property.
The propane tanks need to be filled and serviced
periodically.
¶7 To obviate the continued need to service and
fill the propane tanks MDU proposes to place a
buried pipeline of “4 inch poly and 4 inch steel”
from the existing pipeline at the southern border
of the property. The pipeline would run
approximately 3000 feet, south to north, from
the existing MDU pipeline, to the site of the
Burlington Northern Santa Fe switches. The
pipeline would run entirely beneath property
owned by Lavern Behm.
...
¶14 The purpose of the proposed pipeline in
this case is to carry natural gas to heat the
Burlington Northern Santa Fe switch.
...
¶20 The location of the proposed pipeline
further stretches the meaning of necessity to
mean mere convenience to MDU. That
convenience is not even a present convenience,

4
but one of a future, highly speculative
convenience.
¶21 128th Street Northwest runs down the
section line. As such, the standard 66 foot
easement exists (33 feet on each side of the
section line). The proposed pipeline easement
starts at 33 feet from the section line, and is 10
feet wide. The pipeline runs down the middle of
this 10 foot easement, a mere 38 feet from the
section line, and but 5 feet from the end of the
statutory section line right-of-way. The pipeline
is to run entirely beneath Lavern Behm’s
farmland.
¶22 MDU’s District Manager, Curtis Olson,
testified. He stated he was somewhat involved in
the project, but had never even visited the site.
He agreed that MDU had only minimal
discussions or negotiations with Lavern Behm
regarding the placement of the pipeline. MDU
did not attempt to place the pipeline within the
existing 33 foot section line right-of-way. Olson
stated that he had no discussions with local
township officers regarding any proposal to place
the pipeline within the 33 foot section line rightof-way. Nor did he have any discussions with
township officials regarding any plans for future
changes or improvements to 128th Street
Northwest. The bottom line from this testimony
appears to be that MDU considered no other
options regarding the placement of the pipeline
other than across and beneath Lavern Behm’s
property.

5
¶23 When questioned why the proposed route
was chosen (a mere 5 feet away from the
existing section line right-of-way) and not a
possible route within the 33 foot section line
right-of-way, Olson stated that if 128th Street
Northwest was ever improved, MDU would have
to bear the cost of any movement or replacement
of the pipeline.
¶24 The proposed taking a Lavern Behm’s
property for the purpose of this pipeline is thus
premised on a project to benefit a single user,
Burlington Northern Santa Fe. It is to be placed
on Lavern Behm’s property, a mere 5 feet from
the existing 33 foot section line right away. That
placement is deemed necessary by MDU based
on the speculative fear of a future event which
may never occur, and even if it does, may not
necessitate the repair or replacement of the
pipeline. The necessity proposed by MDU is
nothing more than its own mere convenience.
¶25 Contrasted to this are Lavern Behm’s
rights to own his property and to farm or
otherwise develop it as he sees fit, without the
burden of this easement. The burden on Lavern
Behm is immediate and permanent as opposed
to the uncertain and speculative necessity
argued by MDU.
¶26 The Court therefore finds that the
proposed taking and pipeline route is not
compatible with the greatest public benefit when
weighed against the immediate and permanent
private injury to Lavern Behm.

6
¶27 The Court further finds that MDU’s
decision is arbitrary and capricious. A decision is
arbitrary or capricious if it is not the product of
a rational mental process by which the law and
facts are relied upon and considered together for
achieving a reasoned and reasonable
interpretation. Grand Forks Housing
Authorities v. Grand Forks Board of County
Commissioners, 2010 ND 245, 793 NW2d 168.
¶28 In this case it appears as if MDU looked
only at its own convenience when it determined
to take this pipeline easement. The decision was
based on the sheer speculation of what might, or
might not occur at some unknown future date,
and which might impose some unknown and
uncertain future cost. MDU did not consider at
all the private injury its pipeline would impose
on Lavern Behm and his property. This onesided analysis by MDU, resolving all
uncertainties and speculations in its favor, and
without consideration of Lavern Behm’s rights of
ownership is arbitrary and capricious.
App. 19-20, 21, 24-27.
The testimony that was received at the evidentiary
hearing supports the district court’s findings. Curt
Olson, MDU’s district manager for the Minot area,
testified that that MDU has proposed a four-inch
pipeline, to facilitate Burlington Northern in regards to
its switch station T. 6, 8, 15-16. Olson testified that the
switches are now receiving fuel via the propane tanks
already in existence. T. 16. Olson confirmed that the
easement MDU was requesting over Behm’s property

7
runs parallel and outside the thirty-three foot right-ofway that exists along the county road. T. 17-18. Olson
testified that MDU never applied to use the right-ofway adjacent to the county road. T. 18. Olson confirmed
that the purpose of the proposed gas line was to service
only one client, Burlington Northern. T. 20. Olson
confirmed that the thirty-three foot right-of-way along
the road existed along a section line right-of-way. T. 22.
Olson stated that the reason for not using the right-ofway is because if there’s any future roadwork, the line
would have to be moved at MDU’s expense. T. 23.
Olson also confirmed that he had not checked with the
Township as to whether or not there was any planned
future roadwork. T. 25. Olson also admitted that if the
line was placed on Behm’s property (as requested) it
may be necessary to move that line in the future. T. 26.
Olson also confirmed that the purpose of putting in the
line was so that the propane tanks presently used by
Burlington Northern would no longer be needed. T. 2829. In other words, by putting in the line, the only
change that will occur is Burlington Northern will no
longer have to fill up the propane tanks. T. 29.
The landowner Vern Behm testified that he owns
land on both sides of the section line. T. 41. Behm
testified that he has observed Burlington Northern
filling up the propane tanks that are used to keep the
switches warm. T. 46. Behm testified that Burlington
Northern uses a pay loader to keep the service road
open in the winter, and have a daily operator in the
winter who checks the switches. T. 47. Behm testified
that he considers this merely an issue of convenience
on the part of Burlington Northern. T. 47. Behm is
aware of the existence of the right-of-way thirty-three

8
feet on each side of the township line. T. 47-48. Behm
testified that the road is well-maintained and he is not
aware of any planned roadwork or any plan to widen
the road. T. 48. Behm failed to see any reason why
MDU couldn’t use the right-of-way along the road. T.
49. Behm further testified that Burlington Northern
has the option to just continue using the propane tanks
and not doing the natural gas line at all. T. 49. Behm
further testified that he is been farming in this area
since 1970, and the land has been in his family for 7580 years. T. 51.
Ward County Commissioner John Fjeldahl testified
as to the purpose of section line right-of-ways and that
the road and right of way is for public use for travel as
well as the placement of utilities along the road. T. 53.
Commissioner Fjeldahl testified that it is his
understanding that the intention of the county is for
these right-of-ways to be used instead of using personal
land. T. 54. Commissioner Fjeldahl stated that it was
his opinion as a property owner and as a County
Commissioner that he would prefer that the utilities be
put on the statutory right away versus on private
property. T. 55. Commissioner Fjeldahl further
testified that if MDU wants to build a pipeline they
should use the right-of-way first, if it’s available to
them. T. 59. Commissioner Fjeldahl also testified that
he knows that it is possible to put a pipeline along the
right-of-way, because it has been done. T. 59.
The North Dakota Supreme Court rejected these
findings and concluded that the decision by the entity
taking the private property constitutes and determines
public use and as such all of the findings of the district

9
court were to be ignored, including the finding that the
taking was not a public use or necessary.
REASONS FOR GRANTING THE PETITION
The following questions are presented to this
Court:
1. Is it a violation of due process and the taking
clause for the state – as a matter of law – to allow a
private corporation to take private property through
eminent domain based solely on the private
corporation’s own determination that the taking is for
a public use?
2. In an eminent domain case where the trier of fact
has found that the taking is not a public use, is not
necessary, and is merely for the convenience of one
private entity for the benefit of another private entity,
is it a violation of due process and the taking clause for
an appellate court to disregard these evidentiary
findings and allow the taking to occur based solely on
the private company’s own determination that there is
a public use?
3. Should the case of Kelo v. New London, 545 U.S.
469 (2005), be overruled and the analysis presented by
Justice Thomas in his dissent be adopted by this
Court?
4. Where attorney fees are statutorily required in
the district and appellate matter below, should
attorney fees also be required as to the appeal of the
same proceeding to the United States Supreme Court?

10
A. An Analysis of the Decision Below
Instead of applying the North Dakota Constitution
and the implementing statutes which require
necessity,2 the North Dakota Supreme Court ignored
its own law requiring necessity and reframed Behm’s
argument (inaccurately) as one only asserting there
was no public use. Montana-Dakota Utilities Co. v.
Behm, 2019 ND 139 ¶7, 927 N.W.2d at 868 (“We
interpret Behm’s argument to be that the court erred
in ruling the proposed taking was for a public use.”).
Despite the existence of constitutional and statutory
provisions that recognize the requirement of necessity
for a taking under the state constitution and state
statutes, the North Dakota Supreme Court ignored the
district court findings and refused to consider the
options available to MDU in lieu of the taking. The
Supreme Court also considered the lack of necessity as
irrelevant in this eminent domain action. More
specifically, the North Dakota Supreme Court decided
that the private corporation would be allowed to take
Behm’s private property through eminent domain
despite the fact that the adjacent township right away
(a mere ten feet from the line of taking) was readily
available. The state Supreme Court also refused to
consider that the railroad had the option of continuing
2 Petitioner does not assert any unconstitutionality of the state
constitution or the statutes implementing the constitutional
provision and instead asserts that the state Supreme Court
improperly applied those provisions. As such there is no
notification required under Rule 29.4(c). As a matter of fact, if the
North Dakota Supreme Court had properly applied its own
constitution and laws requiring a public use and a necessity for the
taking, there would be no need to assert petitioner’s rights under
the federal constitution.

11
to heat the switches with propane instead of installing
natural gas service on Behm’s private property. Instead
of applying the necessity requirement found in the
state constitution or the state statutes, the North
Dakota Supreme Court ruled as a matter of law that
the only requirement for the taking is a determination
by the private company that its taking is for a public
use:
A “court’s review of public necessity is limited to
the question of whether the taking of the
particular property sought to be condemned is
reasonably suitable and usable for the
authorized public use.” [citation omitted]. . . The
necessity inquiry under N.D.C.C. § 32-15-05(2)
turns on whether the particular property
proposed to be taken is necessary for the public
use, not whether the authorized public use is
itself necessary. . . . We conclude the district
court erred in ruling MDU’s proposed taking
was not necessary for a public use.
Montana-Dakota Utilities Co. v. Behm, 2019 ND 139,
¶¶14, 16, 18, 927 N.W.2d at 870, 871, 871.
In our view, the concept of public use must be more
than just the use for one of MDU’s customers. To this
end we quote Justice Thomas’ dissent in Kelo: “The
constitution’s text, in short, suggests that the Takings
Clause authorizes the taking of property only if the
public has a right to employ it, not if the public realizes
any conceivable benefit from the taking.” Kelo v. New
London, 545 U.S. 469, 505 (2005) (Thomas, J.,
dissenting). Justice Thomas proceeds to properly assert
that “the Public Use Clause is most naturally read to

12
authorize takings for public use only if the government
or the public actually uses the taken property.” Ibid. at
514 (Thomas, J., dissenting). To hold otherwise is to
effectively render the Public Use Clause superfluous, if
not “a virtual nullity, without the slightest nod to its
original meaning.” Ibid. at 506 (Thomas, J.,
dissenting).
The starting point in reference to property rights
must be that the property is owned by an individual,
and that the holding of that property is a significant
right and that property cannot be taken unless
absolutely necessary and for public use. Where
property rights are being taken by the government, any
and all presumptions should be in favor of the
landowner, not the government or the private
corporation that has been allowed to take the private
property. In other words, the presumption should not
be that there is a public use when the government or a
private corporation authorized by the government is
taking away someone’s property. The presumption
should be against the taking, and the burden should be
on the government (or the private corporation) that
asserts the right to take the property. In this case, not
only did the Supreme Court of North Dakota ignore the
district court’s findings and find a public use, it allowed
the private corporation itself to determine on its own
whether there is a public use, and did not require
necessity for the taking.
If indeed property is a fundamental right, or for
that matter a right which has constitutional
dimensions, one would think that the taking of private
property by eminent domain cannot be countenanced if

13
the taking is not necessary—or if the taking is not for
public use but merely for the convenience of one
particular private corporation. Moreover, this case
involves a private corporation, MDU, taking private
property to service one single client, Burlington
Northern Railroad. Following an evidentiary hearing,
the district court, the Hon. Gary Lee presiding, made
specific findings, including the finding that the taking
of the private property is not necessary because a mere
ten feet away stands a public right-of-way that is not
only available to be used, but was statutorily created
for this very purpose. In addition, the district court
found that Burlington Northern Railroad is perfectly
capable of continuing to heat the switches through
propane tanks that stand adjacent to the rail line on its
own railway easement, and as such placing the natural
gas pipeline along the landowner’s property is not
necessary.
Amazingly, the North Dakota Supreme Court
refused to apply its own Constitution and the statutes
implementing the state constitutional provisions
relating to eminent domain designed to protect the
rights of the landowner, and as such it is appropriate
for this Court to apply the federal Due Process Clause
and Taking Clause to protect the property rights of the
landowner.
It is important to note that on remand Vern Behm
presented both federal and state constitutional rights
to the district court through his pretrial brief and
requested jury instructions. Doc. 143-45, A. 91-122.
Thus, Vern Behm asserted below the following:

14
1. That no taking could occur without the jury
specifically finding that the taking is for a public
use.
2. That no taking could occur without the jury is
this specifically finding that the taking is necessary.
3. That the burden of proving that the taking
constitutes a public use and is necessary is on
MDU, the entity proposing the taking.
Doc. 144, A. 91-122. On January 3, 2020, the district
court declined Vern Behm’s request to present these
questions to the jury as part of the jury’s deliberations
or to employ the jury in an advisory capacity as to
these issues; instead, the district court ruled that “[t]he
only matter left for determination in this trial is the
issue of eminent domain damages to be awarded.” Doc.
No. 149, A. 123-25.
The parties thereupon then resolved the valuation
relating to the taking while retaining Vern Behm’s
right to appeal all of the issues raised before the
district court, including any issue relating to attorney
fees. Doc. 153, A. 126-30.
In regards to attorney fees, Behm submitted his
request for attorney fees that included the time
incurred relating to the petition to this Court (noting
that the Court had requested the filing of a response,
which is relatively rare and indicates that at least one
Justice was interested in the issue). Doc. 156, citing
David C. Thompson and Melanie F. Wachtell, An
Empirical Analysis of Supreme Court Certiorari
Petition Procedures: The Call for Response and the Call
for The Views of The Solicitor General, 16:2

15
GEO.MASON L. REV. 237(2009). The district court on
February 7, 2020, followed the statutory provision
allowing attorney fees in an eminent domain action,
allowing attorney fees before the district court and the
North Dakota Supreme Court but not allowing fees and
costs relating to the petition to this Court – even
though the statute requires an award of fees to “all
proceedings.” Doc. 171, A. 134-53.
In our view, “all proceedings” includes this and the
previous proceeding before the United States Court. To
rule otherwise is not only against the plain language of
the stature, but impermissibly prevents a litigant from
raising important constitutional issues before this
Court. In situations where attorney fees are awarded
in regards to both the state District Court and state
appellate court, and a request for appellate review by
the United States Supreme Court occurs, is not
appropriate for the lower court to deny attorney fees in
the same proceeding, particularly when significant
property and due process rights are being presented to
this court in good faith and upon reasonable basis in
fact and law. A rule denying attorney fees in the third
and most important stage of the proceeding in which
the issues presented to the United States Supreme
Court, such attorney fees should be allowed,
particularly when they were allowed before the District
Court and the appellate court – and the statute
specifically refers to all proceedings and not just state
or lower court proceedings.
On November 19, 2020, the North Dakota Supreme
Court affirmed all the rulings of the district court,
including the denial of attorney fees for proceeding in

16
this action to the United States Supreme Court.
Montana-Dakota Utilities Co. v. Behm, 2020 ND 234,
951 N.W.2d 208. A. 1. The North Dakota Supreme
Court issued its mandate on November 23, 2020. A.12.
We note that this Court has, on occasion, stated
that the presumption of need in an eminent domain
case is not “automatic”:
[T]he Commission’s reading of the statute is
entitled to deference because it “gave effect to
the statutory presumption of Amtrak’s need for
the track, and in so doing implemented and
interpreted the statute in a manner that
comports with its words and structure.” Ibid.
But this begs the question of what showing
Amtrak must make to establish that the track is
“required” so that Amtrak may therefore obtain
the benefit of the presumption of need.
National Railroad Passenger Corporation v. Boston &
Maine Corp., 503 U.S. 407, 426 (1992), White, J.,
dissenting. When the taking authority fails to
demonstrate that the taking is required, there is no
need.
In addition, this Court has stated “that delegations
of eminent domain power to private entities are of a
limited nature.” Ibid. at 421, citing United States v.
Carmack, 329 U.S. 230, 243, n.13 (1946). The specific
footnote in Carmack provides as follows:
In the instant case, we deal with broad language
employed to authorize officials to exercise the
sovereign’s power of eminent domain on behalf
of the sovereign itself. This is a general

17
authorization which carries with it the
sovereign’s full powers except such as are
excluded expressly or by necessary implication.
A distinction exists, however, in the case of
statutes which grant to others, such as public
utilities, a right to exercise the power of eminent
domain on behalf of themselves. These are, in
their very nature, grants of limited powers.
United States v. Carmack, 329 U.S. 230, 243, n.13
(1946).
We assert that a finding of necessity is required
before there can be a taking of private property by a
private company, and where there are alternatives
readily available to render the taking unnecessary, the
taking should not be allowed. Again, as aptly stated by
Justice Thomas, necessity must be a prerequisite to
any taking: “[T]he Government may take property only
when necessary and proper to the exercise of an
expressly enumerated power.” Ibid. at 511 (Thomas, J.,
dissenting). All too often the analysis of many courts
begins with the proposition that the taking of private
property is allowed as long as just compensation is
paid. But the more appropriate analysis should be that
property is an essential (if not fundamental) right that
cannot be encroached upon unless the state – or the
private entity asserting the power of the state through
eminent domain – proves at an appropriate evidentiary
hearing the there is indeed a proper public use and
that that the specific taking is required or necessary.
In addition, we believe that deference to the
legislature should not justify the abdication of this
Court’s role to protect property rights. Every court that

18
reviews a government sponsored taking should be
obligated to ensure that the taking is indeed for a
public use and that the taking is necessary. In our
view, a right that is not enforced by the courts is not a
right but merely an empty phrase signifying nothing.
It is our position that the right to retain and use
one’s own property deserves a higher standard of
constitutional protection than it is presently afforded,
especially in regards to real property. It is appropriate
for this Court to provide more protections – not less –
when property is being taken by a government entity
or, worse yet, by some private entity given the power of
the State to take (or employ for its own use) a person’s
real property. We will next consider why adopting this
position is supported by the history of property rights.
B. The Origins and Constitutional Importance
of Property Rights
Our founding fathers understood full-well the
importance of property and the need for the protection
of property rights. The drafters of the Constitution, as
well as the drafter of the twelve proposed amendments
(of which ten were ratified on December 15, 1791), were
careful students of the writings of John Locke, who
created a trinity relating to the right to property,
asserting that the concept of property entails life,
liberty, and his estate:
[Man] hath by nature a power not only to
preserve his property – that is, his life, liberty,
and estate, against the injuries and attempts of
other men. . . . [N]o political society can be, nor

19
subsist, without having in itself the power to
preserve property . . . .”
John Locke, AN ESSAY ON CIVIL GOVERNMENT.3
Although the specific guarantee of property rights
came later through the Fifth Amendment, the
proponents of the adoption of the proposed constitution
believed that the protection of property rights stood on
equal footing to the protection of the rights of
individuals:
Government is instituted no less for the
protection of the property, than of the persons, of
individuals. . . The rights of property are

3 Locke further espoused his views of the importance of property
rights in his Treatise on Government:
94. . . . (Whereas government has no other end but the
preservation of property.)
...
124. The great and chief end, therefore, of men uniting into
commonwealths and putting themselves under
government is the preservation of their property; to which
the state of Nature there are many things wanting.
John Locke, CONCERNING CIVIL GOVERNMENT ¶¶ 94 & 124. But one
should not assume that this right, like any other, is absolute, as
shown by the following language: “As much as one can make use
of to any advantage of life before it spoils, so much he may by his
labour fix a property in. Whatever is beyond this is more than his
share.” Ibid, ¶30. So too, “we should see him give up again to the
wild common of Nature whatever was more than would supply the
conveniences of life, to be had there for him and his family.” Ibid.,
¶48. “What portion a man carved to himself was easily seen; and
it was useless, as well as dishonest, to carve himself too much, or
take more than he needed.” Ibid., ¶51.

20
committed into the same hands with the
personal rights.
FEDERALIST No. 54 (Feb. 12, 1788). Although Jefferson
made a substantive change to Locke’s triad in the
Declaration of Independence,4 it is the Bills of Rights
that gave breath and substance to property as a specific
right under our supreme law of the land:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
Amendment V (emphasis added).
The belief that property rights should be afforded
the same protections as personal rights is not new.
Indeed, no less a figure than Judge Learned Hand
4 Although Thomas Jefferson replaced Locke’s property triad of
“life, liberty, and estate” with “life, liberty, and the pursuit of
happiness,” the words found in our Constitution through the
amendment process reverted back to Locke’s original concept
through the fifth amendment. It should be noted that Jefferson’s
use of “the pursuit of happiness” was derived from John Locke’s
writings as well. See John Locke, ESSAY CONCERNING HUMAN
UNDERSTANDING Bk. II, Chap. XXXI, Para. 52.

21
presented this view in his celebrated Holmes lectures
given at Harvard University in 1958 (subsequently
published under the title, THE BILL OF RIGHTS). In
discussing the use of the Due Process Clause in cases
involving not property but liberty, Judge Hand decried
the adoption “of a stiffer interpretation of the ‘Due
Process Clause,’ when the subject matter is not
Property but Liberty, as that word has now come to be
defined.” To this point, Judge Learned Hand said the
following:
I cannot help thinking that it would have
seemed a strange anomaly to those who penned
the words in the Fifth to learn that they
constituted severer restrictions as to Liberty
than Property, especially now that Liberty not
only includes freedom from personal restraint,
but enough economic security to allow its
possessor the enjoyment of a satisfactory life.
L. Hand, THE BILL OF RIGHTS 50-51 (1958).
As enunciated in Professor James Ely’s superb
review of the history of property rights, modern justices
such as Justice Stewart, have asserted that property
rights should hold the position similar if not equal to
personal liberties:
Speaking for the Supreme Court, Justice
Potter Stewart amplified this view in Lynch v.
Household Finance Corp. (1972). Stewart
declared “that the dichotomy between personal
liberties and property rights is a false one.
Property does not have rights. People have
rights.” In language evoking the attitudes of the

22
framers, he further stated, “In fact, a
fundamental interdependence exists between
the personal right to liberty and the personal
right in property. Neither could have meeting
without the other. The rights in property are
basic civil rights has long been recognized.”
James W Ely, Jr., THE GUARDIAN OF EVERY OTHER
RIGHT: A CONSTITUTIONAL HISTORY OF PROPERTY
RIGHTS 150-151 (3rd ed. 2008), quoting Lynch v.
Household Finance Corp., 405 U.S. 538, 552 (1972).
According to Professor Ely, the United States
Supreme Court began its wayward path away from the
historic importance of property rights in its decision in
United States v. Carolene Products Co., 304 U.S. 144
(1938):
By separating property rights from individual
freedom [in footnote number 4], the Carolene
Products analysis instituted a double standard
of constitutional review under which the
Supreme Court afforded a higher level of judicial
protection to the preferred category of personal
rights. Economic rights were implicitly assigned
a secondary constitutional status. Because the
reasonableness of economic regulations was
presumed, judicial scrutiny of legislation under
the rational basis test became purely nominal.
Consequently, the Court gave great latitude to
Congress and state legislatures to fashion
economic policy, while expressing only

23
perfunctory concern for the rights of individual
property owners.
James W Ely, Jr., THE GUARDIAN OF EVERY OTHER
RIGHT: A CONSTITUTIONAL HISTORY OF PROPERTY
RIGHTS 140 (3rd ed. 2008).
Given the importance of original intent in presentday constitutional jurisprudence, we will take the time
to provide an overview of the history of property rights
as articulated by Professor Ely.
Professor Ely provides in his book, THE GUARDIAN
the history of property rights
and demonstrates that there is a substantial basis for
not only the importance of property rights in colonial
times, but also indications that the rights of property
were perceived at that time as fundamental rights.
Professor Ely first refers to a Massachusetts 1657
county court decision that “recognized as ‘a
fundamental law’ that property cannot be taken ‘to the
use or to be made the right or property of another man
without his own free consent.’” Ibid. at 14. By 1750
“[m]ost of the colonists owned land, and 80 percent of
the population derived their living from agriculture.”
Ibid. at 16.

OF EVERY OTHER RIGHT,

Professor Ely next provides a review of the
importance of the theories of John Locke and the
application of Lockean thinking that “permeated
English common law.” Ibid. at 17. Also important
during this time was Adam Smith’s 1776 landmark
W EALTH OF N ATIONS that “contended that
governmental intervention in the economy was
unnecessary and likely to prove harmful.” Ibid. at 23.

24
Although the use of eminent domain was regularly
employed by the colonies (but on a limited scale), the
colonists generally regarded just compensation as a
fundamental principle. Ibid. at 25. According to
Professor Ely, it is not without meaning that “the cry
‘Liberty and Property’ became the motto of the
revolutionary movement.” Ibid. at 25. During the
Revolutionary era, the general view was that “what a
man has honestly acquired is absolutely his own, which
he may freely give, but cannot be taken from him
without his consent.” Ibid. at 27. Colonial leaders
agreed with “the time-honored English Whig
philosophy that regarded protection of private property
crucial to the preservation of freedom.” Ibid. at 28.
They also “viewed the security of property as the
principal function of government.” Ibid.
As noted above, it is not without accident that
Thomas Jefferson in the Declaration of Independence
borrowed heavily from John Locke by adopting Locke’s
expression of “life, liberty, and estates.” Our founders
accepted fully the belief that “[t]he acquisition of
property and the pursuit of happiness were so closely
connected with each other in the minds of the founding
generation that naming only one of the two sufficed to
evoke both.” Ibid. at 29.
The Articles of Confederation were adopted in 1781,
and in 1787 Congress enacted the Northwest
Ordinance which included several provisions relating
to property, including the declaration “that no person
should be deprived of liberty or property except by the
[law of the land], [and] if a person’s property were

25
taken for public purpose, ‘full compensation shall be
made for the same.’” Ibid. at 29.
Several states during this colonial period placed in
their constitutions “the common law principle that
compensation should be paid when private property
was taken for public use.” Ibid. at 31. Professor Ely
concludes that “the constitutional protection of
property rights was established in the states well
before the adoption of the federal constitution.” Ibid. at
32. Moreover, at the conclusion of the Revolutionary
War Professor Ely notes that the Treaty of Paris
provided that “there should be no further seizure of
property” such as that which had occurred during the
Revolutionary War against those who were designated
as “traitors” or were declared “person to be guilty of
treason” by bills of attainder. Ibid. at 34-35.
Significantly, “[i]n 1784 James Madison successfully
sponsored a bill to halt further confiscation of British
property in Virginia.” Ibid. at 36. At the time of the
Constitutional Convention of 1778, “the right to
property was among the highest social values in the
new republic.” Ibid. at 41. According to Professor Ely,
“the doctrine that property ownership was essential for
the enjoyment of liberty had long been a fundamental
tenet of Anglo-American constitutional thought. . . .
Despite their differences over particular economic
issues, the right to acquire and own property was
undoubtedly a paramount value of the framers of the
Constitution.” Ibid. at 43.
Given this background, it is therefore not surprising
that many provisions of the United States Constitution
pertain to property interests and were designed to

26
rectify the abuses that characterize the Revolutionary
era. Ibid. at 43.
The original Constitution, of course, did not include
a provision proclaiming the natural right of property
ownership or declaring that a person could not be
deprived of property except by due process of law—
even though these views existed in full-force at the
time of the drafting and adoption of the U.S.
Constitution. The failure to include these rights, as
well as other basic rights, into the original constitution
was simply due to the fact that “[t]he basic
constitutional scheme was to protect individual rights,
including property, by limiting the exercise of
government power through elaborate procedural
devices.” Ibid. at 47.
According to Professor Ely, “[t]he Federalist
attachment to property went beyond the philosophical
position that property constituted the basis of civil
society and a safeguard to liberty. Federalist also
emphasized the economic utility of private property. In
their view, a strong national economy rested on private
ownership.” Ibid. at 49.
Because the most compelling objection to
ratification related to the lack of the Bill of Rights, “the
Federalists informally agreed to accept a bill of rights
as the price of ratification.” Ibid. at 52. The result was
the eventual addition of the Fifth Amendment Due
Process Clause and the Takings Clause.
The U.S. Constitution was ratified in November
1791, and according to Professor Ely “there is no
evidence of opposition to either the due process or the

27
takings clause of the Fifth Amendment.” Ibid. at 55.
Simply put, the framers and the first United States
Congress incorporated through the Fifth Amendment
the Lockean view of property rights, rights which were
considered essential to liberty and were just as
fundamental as the individual rights contained in the
first ten amendments.
CONCLUSION
There are compelling reasons for granting a writ of
certiorari in this case. Since the rendering of Kelo v.
New London, 545 U.S. 469 (2005), there has been an
outcry relating to the misuse of eminent domain by
state political entities (and private entities allowed to
do so by the state).
At the vanguard of this outcry stands several
members of this Court who have asserted that the
decision in Kelo was incorrect. The questions presented
in the instant case constitute important federal
questions that have been presented to a state court of
last resort. The rights of property owners and
landowners – which many perceive to be fundamental
rights – presently stand in harm’s way by the misuse
of government authority by private entities employing
a public power. Private property should not allowed to
be taken when it is not necessary and alternatives
exist. Private property should not allowed to be taken
when there is no public use or actual use by the public.
A distinction should be made in regards to a taking
through eminent domain by a government entity and a
private person or entity which is allowed to employ the

28
power of eminent domain to its own personal
advantage.5
The Court is urged to revisit the thoughtful dissent
of Justice Thomas in Kelo v. New London, 545 U.S. 469,
505-523 (2005). We respectfully suggest that this Court
should overrule Kelo v. New London, 545 U.S. 469
(2005), and adopt the analysis presented by Justice
Thomas in his dissent.
Dated this 16th day of April, 2021.
Respectfully submitted,
ROBERT HALE
1919 2nd Street SE
Minot, ND 58701
(701) 858-0800
couple48@hotmail.com

LYNN M. BOUGHEY
Counsel of Record
BOUGHEY LAW FIRM
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com

Counsel for Petitioner

5 The same may be said as to the distinction between a taking by
a government and “the case of statutes which grant to others, such
as public utilities, a right to exercise the power of eminent domain
on behalf of themselves.” United States v. Carmack, 329 U.S. 230,
243, n.13 (1946).

